App. 1
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
-----------------------------------------------------------------------

No. 18-10801
-----------------------------------------------------------------------

UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.
$4,480,466.16 in funds seized from Bank of America
account ending in 2653
Defendant,
RETAIL READY CAREER CENTER INCORPORATED,
Claimant - Appellant
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Northern District of Texas
-----------------------------------------------------------------------

ON PETITION FOR PANEL REHEARING
(Filed Nov. 5, 2019)
Before ELROD, WILLETT, and DUNCAN, Circuit
Judges.
STUART KYLE DUNCAN, Circuit Judge:
The petition for panel rehearing is DENIED. We
withdraw the previous opinion issued August 22, 2019,
936 F.3d 233, and substitute the following:

App. 2
We address whether a claimant in a civil forfeiture
proceeding may counterclaim for constitutional tort
damages against the United States. The district court
held a claimant may never file counterclaims of any
kind. It adopted the First Circuit’s reasoning that, because a forfeiture is an in rem proceeding against property, there is no “claim” against a claimant that he may
“counter.” Although this reasoning has been adopted by
several district courts and recently by the Sixth Circuit, we find it unpersuasive and decline to adopt it. We
nonetheless affirm the district court’s judgment dismissing the counterclaims for a different reason. The
counterclaims here seek damages based on alleged
Fourth and Fifth Amendment violations arising from
the property seizure. The United States has not waived
sovereign immunity for either claim. We therefore affirm the district court’s judgment on the alternative
ground that the counterclaims are barred by sovereign
immunity.
I.
Appellant Retail Ready Career Center (“RRCC”)
was a private school in Texas offering a six-week “boot
camp style” course to train students as Heating, Ventilation, and Air Conditioning (“HVAC”) technicians.1
According to RRCC, “[m]ost” students were “veterans
who pa[id] for the course using their earned GI Bill
1

We draw these facts primarily from RRCC’s verified claim,
which we accept as true for purposes of reviewing the district
court’s grant of a motion to dismiss. See Masel v. Villareal, 924
F.3d 734, 743 (5th Cir. 2019).

App. 3
benefit,” but “courses were open to other participants”
as well. In 2017, the United States Department of
Veterans Affairs (“VA”) began investigating whether
RRCC had falsely claimed to be in compliance with the
“85-15” rule. This rule prohibits the VA from approving
a veteran’s enrollment in a course “for any period during which more than 85 percent of the students enrolled in the course are having all or part of their
tuition, fees or other charges paid for them by the educational institution or by VA[.]” 38 C.F.R. § 21.4201.
The rule’s purpose is to “minimize the risk that veterans’ benefits will be wasted on educational programs
of little value . . . and to prevent charlatans from grabbing the veterans’ education money.” Cleland v. Nat’l
Coll. of Bus., 435 U.S. 213, 219 (1978) (cleaned up).
In September 2017, federal warrants were issued
to seize the money in RRCC’s bank accounts—amounting to over $4.6 million—as the alleged proceeds of
federal law violations. See FED. R. CIV. P., SUPPLEMENTAL RULE (“SUPP. RULE”) G(3)(b) (“the court—on
finding probable cause—must issue a warrant” to seize
movable property not in government control).2 In October 2017, the government filed a complaint in rem
seeking forfeiture of the funds under various fraud
and conspiracy statutes.3 After receiving notice of the
2

The government also seized other property not relevant to
this appeal, including over $100,000 from five other bank accounts; real property located in Dallas, Texas; and seven luxury
vehicles.
3
See, e.g., 18 U.S.C. § 981(a)(1)(C) (providing “[a]ny property, real or personal, which constitutes or is derived from proceeds traceable to a violation of [certain federal laws]” is “subject

App. 4
forfeiture action, RRCC filed a verified claim to the
seized property. See 18 U.S.C. § 983(a)(4)(A) (providing
that “[a]ny person claiming an interest in the seized
property may file a claim asserting such person’s interest in the property”); SUPP. RULE G(5)(a) (setting out
claim requirements). In its verified claim, RRCC alleged that the seizure occurred without prior notice
or hearing; caused “an immediate and devastating effect on RRCC’s business”; and forced RRCC to “close
the school,” dismiss employees without pay, and fly
students home lest they be “stranded in Texas.” RRCC
also included two “constitutional counterclaims,”
which alleged the seizure violated the Fourth and Fifth
Amendments and sought “damages to compensate
[RRCC] for the destruction of its business.”
The government moved to dismiss RRCC’s counterclaims under Federal Rule of Civil Procedure 12(b)(6).
Relying principally on the First Circuit’s decision in
United States v. One Lot of U.S. Currency ($68,000),
927 F.2d 30 (1st Cir. 1991) (“$68,000”), the government
argued that “claimants in civil-forfeiture cases may not
file counterclaims against the United States, as they
are merely claimants, not the party against which the
to forfeiture to the United States”); id. § 981(a)(1)(D) (providing
“[a]ny property, real or personal, which represents or is traceable
to the gross receipts obtained, directly or indirectly, from a violation of [federal fraud statutes]” is “subject to forfeiture to the
United States”); id. § 982(a)(3) (providing a court shall order that
a person convicted of a federal fraud offense forfeit to the United
States any property “which represents or is traceable to the gross
receipts obtained, directly or indirectly, as a result of such violation”).

App. 5
suit is directed.” The district court noted the parties
had not cited “any binding Fifth Circuit authority” on
this question, but found “persuasive” the First Circuit’s
reasoning in $68,000, which had been followed by several district courts from other circuits.4 The district
court therefore granted the government’s motion to
dismiss RRCC’s counterclaims, “hold[ing] that, as a
claimant in an in rem civil forfeiture action, RRCC cannot bring a counterclaim.”
Meanwhile, the government struggled to state an
adequate claim against RRCC’s funds under the forfeiture rules. The district court dismissed the government’s first amended complaint, finding its allegations
insufficiently specific. The second amended complaint
met the same fate. See, e.g., United States v.
$4,480,466.16 In Funds Seized, 2018 WL 4096340, at
*3 (N.D. Tex. Aug. 28, 2018) (ruling allegations in second amended complaint were “insufficient to comply
with Supp[lemental] R[ule] G(2)’s requirement that
the complaint must ‘state sufficiently detailed facts to
support a reasonable belief that the government will
be able to meet its burden of proof at trial’ ”); SUPP.

4

See United States v. 8 Luxury Vehicles, 88 F.Supp.3d 1332,
1337 (M.D. Fla. 2015); United States v. Funds from Fifth Third
Bank Account # 0065006695, 2013 WL 5914101, at *12 (E.D.
Mich. Nov. 4, 2013); United States v. $22,832.00 in U.S. Currency,
2013 WL 4012712, at *4 (N.D. Ohio Aug. 6, 2013); United States
v. $43,725.00 in U.S. Currency, 2009 WL 347475 at *1 (D.S.C.
Feb. 3, 2009); United States v. 1866.75 Board Feet, 2008 WL
839792, at *3 (E.D. Va. Mar. 25, 2008); United States v. Assorted
Comput. Equip., 2004 WL 784493, at *2 (W.D. Tenn. Jan. 9, 2004).

App. 6
RULE G(2)(f ). The parties continue to litigate that issue
below.5
The issues before us on appeal concern only the
fate of RRCC’s counterclaims. On June 12, 2018, the
district court entered a final judgment dismissing
RRCC’s counterclaims under Federal Rule of Civil Procedure 54(b), which RRCC timely appealed. We have
jurisdiction to review that Rule 54(b) judgment. See
New Amsterdam Cas. Co. v. United States, 272 F.2d
754, 756 (5th Cir. 1959) (dismissal of counterclaim,
when plaintiff ’s claim is still pending, is non-appealable “absent a certificate under Rule 54(b)”).
II.
We review the district court’s judgment dismissing
RRCC’s counterclaims de novo, “ ‘accepting all wellpleaded facts [in RRCC’s counterclaims] as true and
viewing those facts in the light most favorable to
[RRCC].’ ” SGK Props., LLC v. U.S. Bank Nat’l Ass’n,
881 F.3d 933, 943 (5th Cir. 2018) (quoting Stokes v.
Gann, 498 F.3d 483, 484 (5th Cir. 2007)). We may affirm
the district court’s judgment “on any basis supported
5

Following RRCC’s appeal in this case, the government filed
its third amended complaint, in response to which RRCC moved
for dismissal and summary judgment. The district court has not
ruled on those motions. Instead, the district court granted the
government’s motion to stay the forfeiture action for 120 days
during the pendency of a related, ongoing criminal investigation.
The stay expired June 6, 2019, at which point the government
moved to extend the stay for an additional 120 days. That motion
is pending before the district court.

App. 7
by the record.” Total Gas & Power North Am., Inc. v.
FERC, 859 F.3d 325, 332 (5th Cir. 2017) (citing Taylor
v. City of Shreveport, 798 F.3d 276, 279 (5th Cir. 2015);
EEOC v. Simbaki, Ltd., 767 F.3d 475, 481 (5th Cir.
2014)); see also Lee v. Kemna, 534 U.S. 362, 391 (2002)
(“[I]t is well settled that an appellate tribunal may affirm a trial court’s judgment on any ground supported
by the record.”).
III.
We decline to endorse the district court’s ruling
that claimants in in rem civil forfeiture proceedings
are barred, always and everywhere, from filing counterclaims. As we explain below, that broad holding relies on dubious reasoning in a First Circuit opinion
that overlooks the procedural rights of claimants
in in rem forfeiture actions and that conflicts with
longstanding practice in in rem admiralty cases. Nonetheless, we affirm the district court’s judgment on the
narrower ground that RRCC’s constitutional damages
claims are barred by sovereign immunity.
A.
The district court relied heavily on the First Circuit’s decision in $68,000, which concerned an in rem
forfeiture action against a cocaine-tainted Lincoln
Town Car. 927 F.2d at 31–32. The claimant, Castiello,
sought to retrieve a “portable telephone” from the car
by “fil[ing] what he termed a ‘counterclaim’ for [its] return.” Id. at 34. The First Circuit identified multiple

App. 8
flaws in Castiello’s position. For instance, the court
pointed out that, because the forfeiture warrant did
not even encompass the telephone, Castiello’s “personal property claim had no place in th[e] action.” Id.
at 35.6 But the court also laid down this broader reason
for rejecting Castiello’s “counterclaim”:
By definition, a counterclaim is a turn-thetables response directed by one party (“A”) at
another party (“B”) in circumstances where
“B” has earlier lodged a claim in the same proceeding against “A.” A forfeiture action is in
rem, not in personam. The property is the defendant. Since no civil claim was filed by the
government against Castiello—indeed, rather
than being dragooned into the case as a defendant, he intervened as a claimant—there
was no “claim” to “counter.” Thus, Castiello’s
self-styled counterclaim was a nullity, and the
court below appropriately ignored it.
$68,000, 927 F.2d at 34. This citationless half-paragraph
furnished the sole rationale for the district court’s
holding below that “a claimant in an in rem civil forfeiture action . . . cannot bring a counterclaim.”
6

Had the warrant included the telephone, the court stated it
was “at least arguable” that Castiello could “replevy” it “within
the contours of the government’s forfeiture action.” Id. at 34 n.7
(citing United States v. Castro, 883 F.2d 1018 (11th Cir. 1989);
Goodman v. Lane, 48 F.2d 32 (8th Cir. 1931)). The court also
pointed out that, regardless, Castiello remained free to retrieve
the phone “administratively, by a motion in [his] underlying criminal case, or by bringing an independent civil action.” Id. at 35
(cleaned up) (citing 19 U.S.C. § 1618; FED. R. CRIM. P. 41(e);
United States v. Wilson, 540 F.2d 1100, 1104 (D.C. Cir. 1976)).

App. 9
We readily grasp why the district court disposed
of RRCC’s counterclaims on this basis. As the court
pointed out, the First Circuit’s musing in $68,000 has
metastasized to several district courts, and also recently to the Sixth Circuit. See Zappone v. United
States, 870 F.3d 551, 561 (6th Cir. 2017) (stating that
owner in civil forfeiture action may “intervene” but
“may not assert counterclaims against the United
States”) (citing $68,000). And the district court had no
binding authority from our court, because we have
never squarely addressed the issue. We do so now.
Examining the issue as one of first impression, we respectfully reject the First Circuit’s broad rationale for
barring counterclaims in in rem civil forfeiture proceedings.
First, the fact that a forfeiture proceeding is “in
rem, not in personam” does not determine a claimant’s
rights in the proceeding. The forfeiture rules allow a
claimant to take numerous actions respecting the
seized property, even though the proceeding is “in rem.”
To begin with, a claimant may “file a claim” to protect
his interests in the property.7 He may also file: (1) an
answer to the government’s complaint, SUPP. RULE
G(5)(b); (2) a Rule 12 motion, id.; (3) objections to government interrogatories, SUPP. RULE G(6)(b); (4) a
7

See 18 U.S.C. § 983(a)(4)(A) (providing “any person claiming an interest in the seized property may file a claim asserting
such person’s interest in the property in the manner set forth in
the Supplemental Rules”); SUPP. RULE G(5)(a)(i) (providing “[a]
person who asserts an interest in the defendant property may
contest the forfeiture by filing a claim in the court where the
action is pending”).

App. 10
motion to suppress use of the seized property as evidence, SUPP. RULE G(8)(a); and (5) a motion raising a
defense under the Excessive Fines Clause of the
Eighth Amendment, SUPP. RULE G(8)(e); see also 18
U.S.C. § 983(g) (claimant may file a “petition” to “determine whether the forfeiture was constitutionally excessive”). And the civil forfeiture statute lets claimants
do other things, such as: (1) raise and prove an “innocent owner” defense, 18 U.S.C. § 983(d); (2) move to set
aside the forfeiture for lack of notice, id. § 983(e); and
(3) seek immediate release of seized property, id.
§ 983(f ).8 The point being: If a claimant can do all this
in in rem forfeiture proceedings, it cannot be that he is
barred from filing counterclaims simply because forfeitures are “in rem and not in personam.”
Thus, contrary to the First Circuit’s view in
$68,000, the answer to this puzzle does not lie in the
brute fact that, in a forfeiture proceeding, “[t]he property is the defendant.” 927 F.2d at 34. That truism begs
the question what other actors in the proceeding (besides the property itself ) may assert rights arising out
of the forfeiture. See, e.g., United States v. All Funds
In Account Nos. 747.034/278, 747.009/278, & 747.714/278
Banco Espanol de Credito, Spain, 295 F.3d 23, 25 (D.C.
Cir. 2002) (observing that “[c]ivil forfeiture actions are
8

See generally Stefan D. Cassella, The Civil Asset Forfeiture
Reform Act of 2000: Expanded Government Forfeiture Authority
and Strict Deadlines Imposed on All Parties, 27 J. Legis. 97, 97,
125–151 (2001) (“Casella”) (summarizing “comprehensive revision” to forfeiture procedures enacted by Civil Asset Forfeiture
Reform Act of 2000 (“CAFRA”), Pub. L. 106-185, 117 Stat. 202
(2000)).

App. 11
brought against property, not people,” but that “[t]he
owner of the property may intervene to protect his interest”). The multiple procedural options given claimants by the civil forfeiture rules sit uneasily with the
notion that a claimant can never bring counterclaims
in those proceedings.
Second, the reasoning in $68,000 overlooks the
rules governing intervenors. Rule 24 allows intervention of right to “anyone” who, inter alia, “claims an interest relating to the property . . . that is the subject of
the action.” FED. R. CIV. P. 24(a)(2). That sounds quite
like the position of a claimant in a forfeiture proceeding; indeed, the forfeiture rules treat a claimant in
precisely those terms. See 18 U.S.C. § 983(a)(4)(A) (allowing “any person claiming an interest in the seized
property” to file a claim); SUPP. RULE G(5)(a)(i) (allowing “[a] person who asserts an interest in the defendant property” to contest the forfeiture). Moreover, our
cases have described “claimants” in forfeiture proceedings as “intervenors.”9 In $68,000 itself, the First Circuit said Castiello “intervened as a claimant.” 927 F.2d
at 34. Likewise here, the government described RRCC
as “an intervening party.” The kinship between
9

See, e.g., United States v. An Article of Drug Consisting of
4,680 Pails, 725 F.2d 976, 981 (5th Cir. 1981) (observing, “[a]fter
seizure pursuant to a warrant for arrest in rem, Pfizer intervened
as claimant and filed an answer”); United States v. 110 Bars of
Silver, 508 F.2d 799, 801 (5th Cir. 1975) (per curiam) (“This forfeiture proceeding stems from intervenor’s conviction for melting
down United States coins[.]”); Westfall Oldsmobile, Inc. v. United
States, 243 F.2d 409, 411 (5th Cir. 1957) (describing owner contesting automobile forfeiture as “claimant-intervenor”).

App. 12
“claimants” and “intervenors” does not support a blanket rule barring claimants’ counterclaims in forfeiture
proceedings. Quite the opposite. As we have explained,
“[u]nder federal law, an intervenor of right ‘is treated
as he were an original party and has equal standing
with the original parties.’ ” Brown v. Demco, 792 F.2d
478, 480–81 (5th Cir. 1986) (quoting Donovan v. Oil,
Chem., and Atomic Workers Int’l Union, 718 F.2d 1341,
1350 (5th Cir. 1983)); see also 7C WRIGHT & MILLER,
FED. PRAC. & PROC. § 1920 (3d ed.) (explaining an intervenor “has equal standing with the original parties”
and “is entitled to litigate fully on the merits once
intervention has been granted”) (citing Gilbert v. Johnson, 601 F.2d 761, 768 (5th Cir. 1979) (Rubin, J., specially concurring)).10
Third and finally, adopting the First Circuit’s reasoning in $68,000 would conflict with practice in
10

To be sure, the Supplemental Rules applicable to forfeiture
actions do not expressly provide that a claimant may file counterclaims. But “[t]he Federal Rules of Civil Procedure also apply to
[in rem forfeiture] proceedings except to the extent that they are
inconsistent with these Supplemental Rules.” SUPP. RULE A(2).
We discern nothing in the Supplemental Rules inconsistent with
the general proposition that claimants may file counterclaims in
forfeiture proceedings. Relatedly, one district court has suggested
that Rule 13(d) implicitly bars claimants in forfeiture proceedings
from counterclaiming against the United States. See United
States v. 8 Luxury Vehicles, 88 F.Supp.3d at 1334–1335, 1337
(M.D. Fla. 2015). We disagree. Rule 13 merely confirms that allowing counterclaims does not “expand” any waivers of sovereign
immunity by the United States. See FED. R. CIV. P. 13(d) (“These
rules do not expand the right to assert a counterclaim—or to claim
a credit—against the United States or a United States officer or
agency.”). We address sovereign immunity infra.

App. 13
admiralty cases, which have long entertained counterclaims (or their equivalents) in in rem proceedings. See,
e.g., Superior Derrick Services, LLC v. LONESTAR 203,
547 F. App’x. 432, 437 (5th Cir. 2013) (unpublished)
(discussing merits of counterclaim asserted in in rem
proceeding); Incas & Monterey Printing and Packaging, Ltd. v. M/V Sang Jin, 747 F.2d 958, 963–964 & n.16
(5th Cir. 1984) (considering counterclaims by timecharterer of seized vessel in in rem action); Treasure
Salvors, Inc. v. Unidentified Wrecked and Abandoned
Sailing Vessel, 569 F.2d 330, 335 (5th Cir. 1978) (considering United States’ claims when it “intervened in
plaintiffs’ in rem action as a party defendant and filed
a counterclaim asserting a property right in the res”);
Ellis Diesel Sales & Serv., Inc. v. M/V On Strike, 488
F.2d 1095 (5th Cir. 1973) (per curiam) (considering in
rem action in which “[d]efendant filed a counterclaim
alleging damages negligently caused to the vessel”)11;
11

See also, e.g., Puerto Rico Ports Auth. v. Barge Katy-B, O.N.
606665, 427 F.3d 93, 99, 100 (1st Cir. 2005) (noting intervenor’s
counterclaim for damages in in rem proceeding); Hawkspere Shipping Co., Ltd. v. Intamex, S.A., 330 F.3d 225, 230 (4th Cir. 2003)
(considering counterclaim by claimants in in rem proceeding for
wrongful arrest of vessel); Bradford Marine, Inc. v. M/V Sea Falcon, 64 F.3d 585, 586–587 (11th Cir. 1995) (reviewing attorney’s
fees awarded on a counterclaim in an in rem action); Teyseer Cement Co. v. Halla Maritime Corp., 794 F.2d 472, 478 (9th Cir.
1986) (considering whether counterclaim by intervenor in in rem
proceeding waived personal jurisdiction); Ocean Ship Supply,
Ltd. v. MV Leah, 729 F.2d 971, 973 (4th Cir. 1984) (considering
counterclaim for wrongful seizure and damages incurred therein);
Koch Fuels, Inc. v. Cargo of 13,000 Barrels of No. 2 Oil, 704 F.2d
1038, 1039 (8th Cir. 1983) (reviewing district court’s decision to
sever counterclaims in an in rem action for trial by jury).

App. 14
see also, e.g., Compania Naviera Vascongada v. United
States, 354 F.2d 935, 940 (5th Cir. 1966) (addressing
merits of “libel” and “cross-libel” in in rem proceeding)12;
and see, e.g., THOMAS J. SCHOENBAUM, 2 ADMIRALTY &
MAR. LAW § 21:6 (6th ed. 2018) (“SCHOENBAUM”) (explaining that a claimant must prove “demonstrable
bad faith or malice” to succeed on a wrongful seizure
counterclaim).
Moreover, the modern procedural rules applicable
to admiralty and maritime claims plainly foresee
counterclaims in in rem and quasi in rem proceedings.
For instance, Supplemental Rule E(7)—which applies
to “actions in rem and quasi in rem”—sets forth the
circumstances under which a plaintiff must furnish
“security” for damages demanded in a “counterclaim.”
See SUPP. RULE E(7)(a), (b)13; id., advisory committee
12

The older admiralty term “cross-libel” is equivalent to
“counterclaim”: “With the merger of law and admiralty in 1966,
admiralty’s classic and ancient phraseology of libels and cross-libels was replaced with the more mundane terminology of claims
and counterclaims[.]” Titan Nav., Inc. v. Timsco, Inc., 808 F.2d
400, 403 (5th Cir. 1987) (emphasis added); see also 3A BENEDICT
ON ADMIRALTY § 306 (2019) (“Rule 13, Federal Rules of Civil Procedure which treats of counterclaims and cross-claims is the modern counterpart of the old admiralty cross-libels. While the
nomenclature has changed the admiralty practice has basically
remained the same.”).
13
Supplemental Rule E(7) provides as follows:
(7) Security on Counterclaim.
(a) When a person who has given security for damages in the original action asserts a counterclaim
that arises from the transaction or occurrence
that is the subject of the original action, a plaintiff
for whose benefit the security has been given

App. 15
notes (2000) (explaining that “[s]ubdivision (7)(a) is
amended to make it clear that a plaintiff need give security to meet a counterclaim only when the counterclaim is asserted by a person who has given security to
respond in damages in the original action”).14 Given
those textual cues in the Supplemental Rules, it would
seem anomalous to say that counterclaims are always
out-of-bounds in in rem proceedings. And yet the First
Circuit’s rule would bar counterclaims in forfeiture
actions precisely because they are “in rem, not in personam” proceedings. $68,000, 927 F.2d at 34. That
must give security for damages demanded in the
counterclaim unless the court, for cause shown,
directs otherwise. Proceedings on the original
claim must be stayed until this security is given
unless the court directs otherwise.
(b) The plaintiff is required to give security under
Rule E(7)(a) when the United States or its corporate instrumentality counterclaims and would
have been required to give security to respond in
damages if a private party but is relieved by law
from giving security.
14
See also, e.g., Transportes Caribe, S.A. v. M/V Trader, 860
F.2d 637 (5th Cir. 1988) (affirming district court’s order to post
countersecurity under Rule E); Titan Nav., 808 F.2d at 402–03 &
n.2 (discussing development of Supplemental Rule E(7)); Seaboard & Carribean Transp. Corp. v. Hafen-Dampfschiffahrt A.G.
Hapag-Hadac Seebader-Dienst, 329 F.2d 538, 539–541 (5th Cir.
1964) (applying Rule E precursor, Admiralty Rule 50, to a “crosslibelant” in a “libel in rem” proceeding); and see also SCHOENBAUM
§ 21:6 (explaining that “[s]ubsection 7 of [Supplemental Rule E]
contemplates the filing of a counterclaim against the party initiating the seizure”); 4 BENEDICT ON ADMIRALTY § 2.23 (2019) (illustrating how a court may consider “whether or not a counterclaim
has merit for the purposes of determining whether or not a counterclaimant is entitled to countersecurity” under Rule E(7)).

App. 16
overbroad proposition clashes with venerable admiralty practice and modern maritime rules, and we decline to endorse it.
In sum, we respectfully decline to adopt the reasoning in $68,000 that, because “the property is the defendant” in a forfeiture proceeding, a claimant with
interests in that property may never file a counterclaim. If RRCC’s counterclaims are to be dismissed, it
must be for a different reason.15
B.
We affirm the district court’s judgment on a narrower ground. See, e.g., AT&T, Inc. v. United States, 629
F.3d 505, 510 (5th Cir. 2011) (“[i]t is well settled” that
a court of appeals may affirm “on any ground supported by the record”) (citation omitted). On appeal,
the government argues in the alternative that the
15

In addition to rejecting its reasoning, we note that $68,000
addressed a scenario quite different from ours. As the First Circuit observed, the forfeiture warrant in that case did not encompass the property that was the subject of the claimant’s
“counterclaim.” See 927 F.2d at 34 n.7 (“This is not a case where
the claimant seeks the return of the same property which the government seeks to forfeit.”). Had the warrant included the property, the First Circuit acknowledged, the claimant might have
sought to “replevy” the property in the forfeiture action. Id. The
Sixth Circuit’s decision in Zappone—the only circuit case to have
adopted the First Circuit’s reasoning—is also procedurally distinguishable. That case affirmed the dismissal of untimely “counterclaims” asserting Bivens claims against IRS agents who seized
property in a forfeiture action. 870 F.3d at 554. But the IRS
agents were not even parties in the forfeiture proceeding, making
a “counterclaim” against them particularly tenuous.

App. 17
United States has not waived its sovereign immunity
with respect to the particular claims asserted in
RRCC’s counterclaims—damages claims for violations
of the Fourth and Fifth Amendments—and that those
claims are therefore barred. We agree.
“It is axiomatic that the United States may not be
sued without its consent and that the existence of consent is a prerequisite for jurisdiction.” United States v.
Mitchell, 463 U.S. 206, 212 (1983) (citing United States
v. Sherwood, 312 U.S. 584, 586 (1941); 14 WRIGHT, MILLER & COOPER, FED. PRAC. & PROC. § 3654); see also, e.g.,
In re Supreme Beef Processors, Inc., 468 F.3d 248, 251–
52 (5th Cir. 2006) (en banc) (“The Constitution contemplates that, except as authorized by Congress, the federal government and its agencies are immune from
suit.”) (citing Hercules, Inc. v. United States, 516 U.S.
417, 422 (1996)). A waiver of sovereign immunity “cannot be implied but must be unequivocally expressed,”
and any waiver “will be strictly construed, in terms of
its scope, in favor of the sovereign.” Doe v. United
States, 853 F.3d 792, 796 (5th Cir. 2017) (quoting
United States v. Mitchell, 445 U.S. 535, 538 (1980);
Lane v. Peña, 518 U.S. 187, 192 (1996)) (internal quotation marks omitted). The government argues that
RRCC has identified no statute unequivocally waiving
the United States’ immunity for the damages claims in
RRCC’s counterclaims. Specifically, RRCC seeks damages arising from the “unreasonable seizure” of its
bank accounts in violation of the Fourth Amendment
and from the lack of “notice and hearing” in violation

App. 18
of the Fifth Amendment’s Due Process Clause. The
government is correct.
In its reply brief, RRCC attempts to identify the
required waiver in 28 U.S.C. § 2680(c). In that provision, Congress “re-waived” the United States’ sovereign immunity under the Federal Tort Claims Act
(“FTCA”) for certain property damages claims arising
out of forfeitures.16 See, e.g., Smoke Shop, LLC v. United

16

Section 2680(c) provides, in relevant part, that the FTCA
immunity waiver applies “to any claim based on the injury or loss
of goods, merchandise, or other property, while in the possession
of any officer of customs or excise or any other law enforcement
officer, if—
(1) the property was seized for the purpose of forfeiture under any provision of Federal law providing for
the forfeiture of property other than as a sentence imposed upon conviction of a criminal offense;
(2) the interest of the claimant was not forfeited;
(3) the interest of the claimant was not remitted or
mitigated (if the property was subject to forfeiture);
and
(4) the claimant was not convicted of a crime for
which the interest of the claimant in the property was
subject to forfeiture under a Federal criminal forfeiture
law.”
28 U.S.C. § 2680(c)(1)–(4). The subsection cross-references 28
U.S.C. § 1346(b), which in relevant part provides that federal district courts have exclusive jurisdiction over post-January 1, 1945
money damages claims against the United States for
injury or loss of property, or personal injury or death
caused by the negligent or wrongful act or omission of
any employee of the Government while acting within
the scope of his office or employment, under circumstances where the United States, if a private person,

App. 19
States, 761 F.3d 779, 782 (7th Cir. 2014) (explaining
that in the 2000 CAFRA reforms Congress “ ‘rewaived’
the government’s immunity” under the FTCA “for tort
actions stemming from law-enforcement detentions of
property” under specific circumstances); Foster v.
United States, 522 F.3d 1071, 1075 (9th Cir. 2008) (explaining that “CAFRA . . . restored the waiver of sovereign immunity—or ‘re-waived’ sovereign immunity—
with respect to certain forfeiture-related seizures”).
What RRCC overlooks, however, is that the FTCA’s immunity waiver does not extend to “constitutional torts”
like the Fourth and Fifth Amendment damages claims
pled in RRCC’s counterclaims. We have squarely recognized that “[c]onstitutional torts . . . do not provide a
proper predicate for an FTCA claim.” Spotts v. United
States, 613 F.3d 559, 565 n.3 (5th Cir. 2010) (citing
FDIC v. Meyer, 510 U.S. 471, 478 (1994)); see also, e.g.,
Coleman v. United States, 912 F.3d 824, 835 (5th Cir.
2019) (the “source of substantive liability under the
FTCA” must be the “law of the State” and not federal
law) (citing Meyer, 510 U.S. at 478); Sanchez v. Rowe,
870 F.2d 291, 295 (5th Cir. 1989) (explaining “the FTCA
does not provide a cause of action for constitutional
torts” because “by definition constitutional torts are
not based on state law”) (cleaned up). Thus, the FTCA
waiver does not encompass the constitutional damages

would be liable to the claimant in accordance with the
law of the place where the act or omission occurred.
Id. § 1346(b)(1).

App. 20
claims in RRCC’s counterclaims, and the district court
therefore lacked jurisdiction over them.17
RRCC also argues that the United States waives
sovereign immunity simply by “initiat[ing] an in rem
proceeding.” RRCC cites no authority supporting that
grandiose proposition. It points only admiralty cases
allowing a limited cross-libel against the United States
when the United States sues another vessel for collision damages. See United States v. The Thekla, 266 U.S.
17

We do not decide whether RRCC could bring valid FTCA
claims as counterclaims in a civil forfeiture proceeding. See, e.g.,
Life Partners Inc. v. United States, 650 F.3d 1026, 1029-1030 (5th
Cir. 2011) (discussing administrative exhaustion requirements
which are “a prerequisite to suit under the FTCA”) (citing 28
U.S.C. § 2675(a); McAfee v. 5th Circuit Judges, 884 F.2d 221, 22223 (5th Cir. 1989)). We decide only that the specific claims asserted in RRCC’s counterclaims fall outside the CAFRA re-waiver
and are therefore barred by sovereign immunity. Additionally, we
note that neither the Tucker Act nor its companion, the Little
Tucker Act, waive sovereign immunity over RRCC’s claims. The
Tucker Act provides a judicial avenue for “any claim against the
United States founded . . . upon the Constitution.” 28 U.S.C.
§ 1491(a)(1); see also United States v. Bormes, 568 U.S. 6, 11
(2012) (discussing Tucker Act). The waiver in the Tucker Act,
however, “has been limited to apply only to the Takings Clause
. . . because only that clause contemplates payment by the federal
government.” Rothe Dev. Corp. v. U.S. Dept. of Defense, 194 F.3d
622, 625 (5th Cir. 1999). Here, RRCC does not invoke the Tucker
Act, and its Fifth Amendment claims are premised on an alleged
due process violation, not the Takings Clause. See, e.g., Bellamy
v. United States, 7 Cl. Ct. 720, 723 (1985) (explaining claims court
“has no jurisdiction over claims based upon the Due Process and
Equal Protection guarantees of the Fifth Amendment, because
these constitutional provisions do not obligate the Federal Government to pay money damages” (quoting Carruth v. United
States, 224 Ct. Cl. 422, 445 (1980) (cleaned up)).

App. 21
328 (1924); United States v. The Paquete Habana, 189
U.S. 453 (1903); The Siren, 74 U.S. 152 (1868); see also,
e.g., United States v. Shaw, 309 U.S. 495, 502–03 (1940)
(explaining that, in such cases, “it is necessary to determine the cross-libel as well as the original libel to
reach a conclusion as to liability for the collision”).18
But RRCC directs us to no authority supporting the
proposition that this distinct admiralty rule waives the
United States’ sovereign immunity whenever it institutes a civil forfeiture proceeding. Nor does RRCC direct us to any unambiguous statutory waiver of the
United States’ immunity under such circumstances.19
As we have already explained, Congress did enact an
unambiguous immunity waiver with respect to forfeiture proceedings, see 28 U.S.C. § 2680(c)(1)-(4), but it
has no application here.
Finally, RRCC claims we cannot reach sovereign
immunity for two reasons. First, RRCC points out the
government did not raise the issue below. That is irrelevant: Whether the United States’ sovereign immunity
18

See also generally 2 AM. JUR. 2d ADMIRALTY § 44 (“Whenever the United States sues for damage inflicted on its vessel or
cargo, it impliedly waives its exemption from admiralty jurisdiction as to cross libels or counterclaims arising from the same
transaction.”) (citing The Thekla, 266 U.S. 328; The Western
Maid, 257 U.S. 419 (1922)).
19
RRCC incorrectly points to the immunity waiver in 46
U.S.C. § 30903(a), but that statute also pertains only to certain
admiralty claims involving the United States. See, e.g., MS Tabea
Schiffahrtsgesellschaft MBH & Co. KG v. United States, 636 F.3d
161, 165 n.1 (5th Cir. 2011) (explaining that “[t]he Suits in Admiralty Act (SAA) . . . provides the appropriate waiver for maritime
tort claims against the United States”) (citing 46 U.S.C. § 30903).

App. 22
has been waived is a question of subject matter jurisdiction we can address for the first time on appeal. See,
e.g., Lewis v. Hunt, 492 F.3d 565, 568 (5th Cir. 2007)
(appellate court may consider United States’ sovereign
immunity sua sponte, “[a]lthough the parties and the
district court did not raise [it]”); Bodin v. Vagshenian,
462 F.3d 481, 484 (5th Cir. 2006) (lack of waiver of
United States’ sovereign immunity under FTCA “deprives federal courts of subject matter jurisdiction”).
Second, RRCC claims that addressing sovereign immunity would convert a without-prejudice dismissal
below into a with-prejudice dismissal on appeal, which
would be inappropriate without a cross-appeal. See,
e.g., Jennings v. Stephens, 135 S. Ct. 793, 798 (2015)
(explaining “an appellee who does not cross-appeal
may not ‘attack the [district court’s] decree with a view
either to enlarging his own rights thereunder or of
lessening the rights of his adversary’ ”) (quoting United
States v. American Railway Express Co., 265 U.S. 425,
435 (1924)). RRCC is again mistaken. Claims barred
by sovereign immunity are dismissed without prejudice, not with prejudice. See, e.g., Warnock v. Pecos Cty.,
Tex., 88 F.3d 341, 343 (5th Cir. 1996) (explaining that
“[b]ecause sovereign immunity deprives the court of jurisdiction, the claims barred by sovereign immunity
can be dismissed only under Rule 12(b)(1) and not with
prejudice”); see also, e.g., United States v. Texas Tech
Univ., 171 F.3d 279, 285 n.9 (5th Cir. 1999) (same, citing Warnock); 9 WRIGHT & MILLER, FED. PRAC. & PROC.
§ 2373 (because dismissal for lack of jurisdiction does
not reach merits, claim “must be considered to have
been dismissed without prejudice.”). Thus, we may, and

App. 23
do, rule that RRCC’s counterclaims are barred by sovereign immunity.20
IV.
Congress has provided various remedies for claimants like RRCC who assert that the United States has
wrongfully seized their property in forfeiture proceedings. See, e.g., United States v. Khan, 497 F.3d 204, 208
(2nd Cir. 2007) (by reforming the forfeiture laws in
CAFRA, “Congress was reacting to public outcry over
the government’s too-zealous pursuit of civil and criminal forfeitures”). Under certain circumstances, claimants who “substantially prevail[ ]” in a forfeiture action
may recover attorneys’ fees, costs, and interest. See 28
U.S.C. § 2465(b)(1)(A)–(C). In some cases, they may sue
the United States for property damages under the
FTCA. See 28 U.S.C. § 2680(c)(1)–(4). What claimants
may not do, however, is sue the United States for constitutional torts arising out of the property seizure.
Congress has not waived the United States’ sovereign
immunity for damages claims of that nature. Because
RRCC’s counterclaims sought precisely those kinds of

20

Because we resolve the appeal on sovereign immunity
grounds, we do not address the government’s argument that
RRCC’s damages counterclaims are barred by 28 U.S.C.
§ 2465(b)(2)(A). Part of a provision addressing government liability for costs, fees, and interest when a claimant prevails in a forfeiture proceeding, § 2465(b)(2)(A) provides that “[t]he United
States shall not be required to disgorge the value of any intangible benefits nor make any other payments to the claimant not specifically authorized by this subsection.” 28 U.S.C. § 2465(b)(2)(A).

App. 24
damages, we hold its counterclaims are barred by sovereign immunity.
AFFIRMED.

App. 25
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
-----------------------------------------------------------------------

No. 18-10801
-----------------------------------------------------------------------

UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.
$4,480,466.16 in funds seized from Bank of America
account ending in 2653
Defendant,
RETAIL READY CAREER CENTER INCORPORATED,
Claimant - Appellant
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Northern District of Texas
-----------------------------------------------------------------------

(Filed Aug. 22, 2019)
Before ELROD, WILLETT, and DUNCAN, Circuit
Judges.
STUART KYLE DUNCAN, Circuit Judge:
In this civil forfeiture proceeding, the United
States seized millions of dollars from a Texas vocational school, alleging the funds were the fruits of a
scheme to fleece veterans. The school intervened as a
claimant, denied the government’s allegations, and
counterclaimed for constitutional tort damages

App. 26
against the government for ruining its business. The
district court dismissed the school’s counterclaims as a
matter of law. Finding no authority from our court on
the issue, the district court adopted the First Circuit’s
view that claimants in an in rem forfeiture proceeding
may never bring counterclaims. See United States v.
One Lot of U.S. Currency ($68,000), 927 F.2d 30, 34 (1st
Cir. 1991) (“$68,000”). On appeal, the school protests
that this categorical rule barring all counterclaims in
civil forfeiture proceedings is incorrect. We decline to
address that question, however, because the school’s
specific counterclaims are barred for a more fundamental reason—sovereign immunity—and so the district court lacked subject matter jurisdiction over
them. We therefore vacate the district court’s judgment
and remand with instructions to dismiss the school’s
counterclaims for lack of subject matter jurisdiction.
I.
Appellant Retail Ready Career Center (“RRCC”)
was a private school in Texas offering a six-week “boot
camp style” course to train students as Heating, Ventilation, and Air Conditioning (“HVAC”) technicians.1
According to RRCC, “[m]ost” students were “veterans
who pa[id] for the course using their earned GI Bill
benefit,” but “courses were open to other participants”
as well. In 2017, the United States Department of
1

We draw these facts primarily from RRCC’s verified claim,
which we accept as true for purposes of reviewing the district
court’s grant of a motion to dismiss. See Masel v. Villarreal, 924
F.3d 734, 743 (5th Cir. 2019).

App. 27
Veterans Affairs (“VA”) began investigating whether
RRCC had falsely claimed to be in compliance with the
“85-15” rule. This rule prohibits the VA from approving
a veteran’s enrollment in a course “for any period during which more than 85 percent of the students enrolled in the course are having all or part of their
tuition, fees or other charges paid for them by the educational institution or by VA[.]” 38 C.F.R. § 21.4201.
The rule’s purpose is to “minimize the risk that veterans’ benefits will be wasted on educational programs
of little value . . . and to prevent charlatans from
grabbing the veterans’ education money.” Cleland v.
Nat’l Coll. of Bus., 435 U.S. 213, 219 (1978) (cleaned
up).
In September 2017, federal warrants were issued
to seize the money in RRCC’s bank accounts—over
$4.6 million—as the alleged proceeds of federal law violations. See FED. R. CIV. P., SUPPLEMENTAL RULE
(“SUPP. RULE”) G(3)(b) (explaining “the court—on finding probable cause—must issue a warrant” to seize
movable property not in government control).2 In October 2017, the government filed a complaint in rem
seeking forfeiture of the funds under various fraud
and conspiracy statutes.3 After receiving notice of that
2

The government also seized other property not relevant to
this appeal, including over $100,000 from five other bank accounts; real property located in Dallas, Texas; and seven luxury
vehicles.
3
See, e.g., 18 U.S.C. § 981(a)(1)(C) (providing “[a]ny property, real or personal, which constitutes or is derived from proceeds traceable to a violation of [certain federal laws]” is “subject
to forfeiture to the United States”); id. § 981(a)(1)(D) (providing

App. 28
action, RRCC filed a verified claim to the seized property. See 18 U.S.C. § 983(a)(4)(A) (providing “[a]ny person claiming an interest in the seized property may file
a claim asserting such person’s interest in the property”); SUPP. RULE G(5)(a) (setting out claim requirements). In its verified claim, RRCC alleged that the
seizure occurred without prior notice or hearing;
caused “an immediate and devastating effect on
RRCC’s business”; and forced RRCC to “close the
school,” dismiss employees without pay, and fly students home lest they be “stranded in Texas.” RRCC
also included two “constitutional counterclaims,”
which alleged the seizure violated the Fourth and Fifth
Amendments and sought “damages to compensate
[RRCC] for the destruction of its business.”
The government moved to dismiss RRCC’s counterclaims under Federal Rule of Civil Procedure 12(b)(6).
Relying principally on the First Circuit’s decision in
$68,000, 927 F.2d 30, the government argued that
“claimants in civil-forfeiture cases may not file counterclaims against the United States, as they are merely
claimants, not the party against which the suit is
directed.” The district court noted the parties had not
cited “any binding Fifth Circuit authority” on this
“[a]ny property, real or personal, which represents or is traceable
to the gross receipts obtained, directly or indirectly, from a violation of [federal fraud statutes]” is “subject to forfeiture to the
United States”); id. § 982(a)(3) (providing a court shall order that
a person convicted of a federal fraud offense forfeit to the United
States any property “which represents or is traceable to the gross
receipts obtained, directly or indirectly, as a result of such violation”).

App. 29
question, but found “persuasive” the First Circuit’s
reasoning in $68,000,4 which had been followed by
several district courts from other circuits.5 The court
therefore granted the government’s motion to dismiss
RRCC’s counterclaims, “hold[ing] that, as a claimant in
an in rem civil forfeiture action, RRCC cannot bring a
counterclaim.”

4

The entirety of the First Circuit’s reasoning on this point
consists of this citation-free half-paragraph:
By definition, a counterclaim is a turn-the-tables response directed by one party (“A”) at another party
(“B”) in circumstances where “B” has earlier lodged a
claim in the same proceeding against “A.” A forfeiture
action is in rem, not in personam. The property is the
defendant. Since no civil claim was filed by the government against [the claimant]—indeed, rather than being dragooned into the case as a defendant, he
intervened as a claimant—there was no “claim” to
“counter.” Thus, [the claimant’s] self-styled counterclaim was a nullity, and the court below appropriately
ignored it.
$68,000, 927 F.2d at 34.
5
See United States v. 8 Luxury Vehicles, 88 F. Supp. 3d 1332,
1337 (M.D. Fla. 2015); United States v. Funds from Fifth Third
Bank Account # 0065006695, No. 13-11728, 2013 WL 5914101, at
*12 (E.D. Mich. Nov. 4, 2013); United States v. $22,832.00 in
U.S. Currency, No. 1:12 CV 01987, 2013 WL 4012712, at *4 (N.D.
Ohio Aug. 6, 2013); United States v. $43,725.00 in U.S. Currency,
No. 4:08–1373–TLW, 2009 WL 347475 at *1 (D.S.C. Feb. 3, 2009);
United States v. 1866.75 Bd. Feet, No. 1:07cv1100 (GBL), 2008 WL
839792, at *3 (E.D. Va. Mar. 25, 2008); United States v. Assorted
Comput. Equip., No. 03–2356V, 2004 WL 784493, at *2 (W.D.
Tenn. Jan. 9, 2004). The Sixth Circuit has recently adopted the
First Circuit’s rationale in $68,000. See Zappone v. United States,
870 F.3d 551, 561 (6th Cir. 2017).

App. 30
Meanwhile, the government struggled to state an
adequate claim against RRCC’s funds under the forfeiture rules. The district court dismissed the government’s first amended complaint, finding its allegations
insufficiently specific. The second amended complaint
met the same fate. See United States v. $4,480,466.16
In Funds Seized, No. 3:17–CV–2989–D, 2018 WL
4096340, at *3 (N.D. Tex. Aug. 28, 2018) (ruling allegations in second amended complaint were “insufficient
to comply with Supp[lemental] R[ule] G(2)’s requirement that the complaint must ‘state sufficiently detailed facts to support a reasonable belief that the
government will be able to meet its burden of proof
at trial’ ”); SUPP. RULE G(2)(f ). The parties continue to
litigate that issue below.6
The issues before us on appeal concern only the
fate of RRCC’s counterclaims. On June 12, 2018, the
district court entered a final judgment dismissing
RRCC’s counterclaims under Federal Rule of Civil Procedure 54(b), which RRCC timely appealed. We have
jurisdiction to review that Rule 54(b) judgment. See
New Amsterdam Cas. Co. v. United States, 272 F.2d
754, 756 (5th Cir. 1959) (dismissal of counterclaim,
6

Following RRCC’s appeal in this case, the government filed
its third amended complaint, in response to which RRCC moved
for dismissal and summary judgment. The district court has not
ruled on those motions. Instead, the district court granted the
government’s motion to stay the forfeiture action for 120 days
during the pendency of a related, ongoing criminal investigation.
The stay expired June 6, 2019, at which point the government
moved to extend the stay for an additional 120 days. That motion
is pending before the district court.

App. 31
when plaintiff’s claim is still pending, is non-appealable
“absent a certificate under Rule 54(b)”).
II.
We review the district court’s judgment dismissing
RRCC’s counterclaims de novo, “accepting all wellpleaded facts [in RRCC’s counterclaims] as true and
viewing those facts in the light most favorable to
[RRCC].” SGK Props., LLC v. U.S. Bank Nat’l Ass’n, 881
F.3d 933, 943 (5th Cir. 2018) (quoting Stokes v. Gann,
498 F.3d 483, 484 (5th Cir. 2007)). We may affirm the
district court’s judgment “on any basis supported by
the record.” Total Gas & Power N. Am., Inc. v. FERC,
859 F.3d 325, 332 (5th Cir. 2017) (citing Taylor v. City
of Shreveport, 798 F.3d 276, 279 (5th Cir. 2015); EEOC
v. Simbaki, Ltd., 767 F.3d 475, 481 (5th Cir. 2014)); see
also Lee v. Kemna, 534 U.S. 362, 391 (2002) (“[I]t is well
settled that an appellate tribunal may affirm a trial
court’s judgment on any ground supported by the record.”).
III.
On appeal, RRCC asks us to disclaim the district
court’s broad ruling that claimants in in rem civil forfeiture proceedings are barred, always and everywhere, from filing counterclaims. We decline to address
that question, however, because RRCC’s counterclaims
are barred for a more fundamental reason: sovereign

App. 32
immunity.7 As the government points out, the United
States has not waived its sovereign immunity with
respect to the particular claims asserted in RRCC’s
counterclaims—damages claims for violations of the
Fourth and Fifth Amendments—and the district court
therefore lacked subject matter jurisdiction over them.
We agree.
“It is axiomatic that the United States may not
be sued without its consent and that the existence of
consent is a prerequisite for jurisdiction.” United
States v. Mitchell, 463 U.S. 206, 212 (1983) (citing
United States v. Sherwood, 312 U.S. 584, 586 (1941);
14 WRIGHT, MILLER & COOPER, FED. PRAC. & PROC.
§ 3654); see also, e.g., In re Supreme Beef Processors,
Inc., 468 F.3d 248, 251–52 (5th Cir. 2006) (en banc)
(“The Constitution contemplates that, except as authorized by Congress, the federal government and its
agencies are immune from suit.” (citing Hercules, Inc.
v. United States, 516 U.S. 417, 422 (1996))). A waiver of
sovereign immunity “cannot be implied but must be
unequivocally expressed,” and any waiver “will be
strictly construed, in terms of its scope, in favor of the
sovereign.” Doe v. United States, 853 F.3d 792, 796 (5th
Cir. 2017) (quoting United States v. Mitchell, 445 U.S.
535, 538 (1980); Lane v. Pena, 518 U.S. 187, 192 (1996))
(internal quotation marks omitted). The government
7

Because we rule on the basis of sovereign immunity, nothing in our opinion should be read as approving the First Circuit’s
rationale in $68,000 that counterclaims in in rem forfeiture proceedings are categorically barred. As the district court pointed
out, no decision of ours has adopted that broad view and we have
no occasion to address whether it is correct.

App. 33
argues that RRCC has identified no statute unequivocally waiving the United States’ immunity for the
damages claims in RRCC’s counterclaims. Specifically,
RRCC seeks damages arising from the “unreasonable
seizure” of its bank accounts in violation of the Fourth
Amendment and from the lack of “notice and hearing”
in violation of the Fifth Amendment’s Due Process
Clause. The government is correct.
In its reply brief, RRCC attempts to identify the
required waiver in 28 U.S.C. § 2680(c). In that provision, Congress “rewaived” the United States’ sovereign
immunity under the Federal Tort Claims Act (“FTCA”)
for certain property damages claims arising out of forfeitures.8 See, e.g., Smoke Shop, LLC v. United States,

8

Section 2680(c) provides, in relevant part, that the FTCA
immunity waiver applies “to any claim based on the injury or loss
of goods, merchandise, or other property, while in the possession
of any officer of customs or excise or any other law enforcement
officer, if—
(1) the property was seized for the purpose of forfeiture under any provision of Federal law providing for
the forfeiture of property other than as a sentence imposed upon conviction of a criminal offense;
(2) the interest of the claimant was not forfeited;
(3) the interest of the claimant was not remitted or
mitigated (if the property was subject to forfeiture);
and
(4) the claimant was not convicted of a crime for
which the interest of the claimant in the property was
subject to forfeiture under a Federal criminal forfeiture
law.”
28 U.S.C. § 2680(c)(1)–(4). The subsection cross-references 28
U.S.C. § 1346(b), which in relevant part provides that federal

App. 34
761 F.3d 779, 782 (7th Cir. 2014) (explaining that in
the 2000 Civil Asset Forfeiture Reform Act or “CAFRA”
Congress “ ‘rewaived’ the government’s immunity” under the FTCA “for tort actions stemming from lawenforcement detentions of property” under specific
circumstances); Foster v. United States, 522 F.3d 1071,
1075 (9th Cir. 2008) (explaining “CAFRA . . . restored
the waiver of sovereign immunity—or ‘re-waived’ sovereign immunity—with respect to certain forfeiturerelated seizures”). RRCC overlooks, however, that the
FTCA waiver does not extend to “constitutional torts”
like the Fourth and Fifth Amendment damages claims
pled in RRCC’s counterclaims. We have squarely recognized that “[c]onstitutional torts . . . do not provide a
proper predicate for an FTCA claim.” Spotts v. United
States, 613 F.3d 559, 565 n.3 (5th Cir. 2010) (citing
FDIC v. Meyer, 510 U.S. 471, 478 (1994)); see also, e.g.,
Coleman v. United States, 912 F.3d 824, 835 (5th Cir.
2019) (the “source of substantive liability under the
FTCA” must be the “law of the State” and not federal
law (citing Meyer, 510 U.S. at 478)); Sanchez v. Rowe,
870 F.2d 291, 295 (5th Cir. 1989) (explaining “the FTCA
does not provide a cause of action for constitutional
district courts have exclusive jurisdiction over post-January 1,
1945 money damages claims against the United States for
injury or loss of property, or personal injury or death
caused by the negligent or wrongful act or omission of
any employee of the Government while acting within
the scope of his office or employment, under circumstances where the United States, if a private person,
would be liable to the claimant in accordance with the
law of the place where the act or omission occurred.
Id. § 1346(b)(1).

App. 35
torts” because “by definition constitutional torts are
not based on state law” (cleaned up)). Thus, the FTCA
waiver does not encompass the constitutional damages
claims in RRCC’s counterclaims, and the district court
thus lacked jurisdiction over them.9
RRCC also argues that the United States waives
sovereign immunity simply by “initiat[ing] an in rem
proceeding.” RRCC cites no authority supporting that
grandiose proposition. It points only to admiralty cases
9

We do not decide whether RRCC could bring valid FTCA
claims as counterclaims in a civil forfeiture proceeding. See, e.g.,
Life Partners Inc. v. United States, 650 F.3d 1026, 1029-30 (5th
Cir. 2011) (discussing administrative exhaustion requirements
which are “a prerequisite to suit under the FTCA”) (citing 28
U.S.C. § 2675(a); McAfee v. 5th Circuit Judges, 884 F.2d 221, 222–
23 (5th Cir. 1989)). We decide only that the specific claims asserted in RRCC’s counterclaims fall outside the CAFRA re-waiver
and are therefore barred by sovereign immunity. Additionally, we
note that neither the Tucker Act nor its companion, the Little
Tucker Act, waive sovereign immunity over RRCC’s claims. The
Tucker Act provides a judicial avenue for “any claim against the
United States founded . . . upon the Constitution.” 28 U.S.C.
§ 1491(a)(1); see also United States v. Bormes, 568 U.S. 6, 11
(2012) (discussing Tucker Act). The waiver in the Tucker Act,
however, “has been limited to apply only to the Takings Clause
. . . because only that clause contemplates payment by the federal
government.” Rothe Dev. Corp. v. U.S. Dep’t of Defense, 194 F.3d
622, 625 (5th Cir. 1999). Here, RRCC does not invoke the Tucker
Act, and its Fifth Amendment claims are premised on an alleged
due process violation, not the Takings Clause. See, e.g., Bellamy
v. United States, 7 Cl. Ct. 720, 723 (1985) (explaining claims court
“has no jurisdiction over claims based upon the Due Process and
Equal Protection guarantees of the Fifth Amendment, because
these constitutional provisions do not obligate the Federal Government to pay money damages” (quoting Carruth v. United
States, 224 Ct. Cl. 422, 445 (1980) (cleaned up)).

App. 36
allowing a limited cross-libel against the United States
when the United States sues another vessel for collision damages. See United States v. The Thekla, 266 U.S.
328 (1924); United States v. The Paquete Habana, 189
U.S. 453 (1903); The Siren, 74 U.S. 152 (1868); see also,
e.g., United States v. Shaw, 309 U.S. 495, 502–03
(1940) (explaining that, in such cases, “it is necessary
to determine the cross-libel as well as the original libel
to reach a conclusion as to liability for the collision”).10
But RRCC directs us to no authority for the proposition that this distinct admiralty rule waives the United
States’ sovereign immunity whenever it institutes a
civil forfeiture proceeding. Nor does RRCC direct us to
any unambiguous statutory waiver of the United
States’ immunity under such circumstances.11 As we
have already explained, Congress did enact an unambiguous immunity waiver with respect to forfeiture
proceedings, see 28 U.S.C. § 2680(c)(1)-(4), but it has no
application here.

10

See generally 2 AM. JUR. 2d ADMIRALTY § 44 (“Whenever the
United States sues for damage inflicted on its vessel or cargo, it
impliedly waives its exemption from admiralty jurisdiction as to
cross libels or counterclaims arising from the same transaction.”
(citing The Thekla, 266 U.S. 328; The Western Maid, 257 U.S. 419
(1922))).
11
RRCC incorrectly points to the immunity waiver in 46
U.S.C. § 30903(a), but that statute also pertains only to certain
admiralty claims involving the United States. See, e.g., MS Tabea
Schiffahrtsgesellschaft MBH & Co. KG v. United States, 636 F.3d
161, 165 n.1 (5th Cir. 2011) (explaining that “[t]he Suits in Admiralty Act (SAA) . . . provides the appropriate waiver for maritime
tort claims against the United States” (citing 46 U.S.C. § 30903)).

App. 37
Finally, RRCC claims we cannot reach sovereign
immunity for two reasons. First, RRCC points out the
government did not raise the issue below. That is irrelevant: Whether the United States’ sovereign immunity
has been waived is a question of subject matter jurisdiction we can address for the first time on appeal. See,
e.g., Lewis v. Hunt, 492 F.3d 565, 568 (5th Cir. 2007)
(holding that an appellate court may consider United
States’ sovereign immunity sua sponte, “[a]lthough the
parties and the district court did not raise [it]”); Bodin
v. Vagshenian, 462 F.3d 481, 484 (5th Cir. 2006) (explaining that lack of waiver of United States’ sovereign
immunity under FTCA “deprives federal courts of subject matter jurisdiction”). Second, RRCC claims that
addressing sovereign immunity would convert a without-prejudice dismissal below into a with-prejudice
dismissal on appeal, which would be inappropriate
without a cross-appeal. See, e.g., Jennings v. Stephens,
574 U.S. 271, 135 S. Ct. 793, 798 (2015) (explaining “an
appellee who does not cross-appeal may not ‘attack the
[district court’s] decree with a view either to enlarging
his own rights thereunder or of lessening the rights of
his adversary’ ” (quoting United States v. Am. Ry. Express Co., 265 U.S. 425, 435 (1924))). RRCC is again
mistaken. Claims barred by sovereign immunity are
dismissed without prejudice, not with prejudice. See,
e.g., Warnock v. Pecos Cty., Tex., 88 F.3d 341, 343 (5th
Cir. 1996) (explaining that “[b]ecause sovereign immunity deprives the court of jurisdiction, the claims
barred by sovereign immunity can be dismissed only
under Rule 12(b)(1) and not with prejudice”); see also,
e.g., United States v. Tex. Tech Univ., 171 F.3d 279, 285

App. 38
n.9 (5th Cir. 1999) (same, citing Warnock); 9 WRIGHT &
MILLER, FED. PRAC. & PROC. § 2373 (because dismissal
for lack of jurisdiction does not reach merits, claim
“must be considered to have been dismissed without
prejudice”). Thus, we may, and do, rule that RRCC’s
counterclaims are barred by sovereign immunity.12
IV.
Congress has provided various remedies for claimants like RRCC who assert that the United States has
wrongfully seized their property in forfeiture proceedings. See, e.g., United States v. Khan, 497 F.3d 204, 208
(2nd Cir. 2007) (by reforming the forfeiture laws in
CAFRA, “Congress was reacting to public outcry over
the government’s too-zealous pursuit of civil and criminal forfeitures”). Under certain circumstances, claimants who “substantially prevail[ ]” in a forfeiture action
may recover attorneys’ fees, costs, and interest. See
28 U.S.C. § 2465(b)(1)(A)–(C). In some cases, they may
sue the United States for property damages under the
FTCA. See 28 U.S.C. § 2680(c)(1)–(4). What claimants
may not do, however, is sue the United States for constitutional torts arising out of the property seizure.
12

Because we resolve the appeal on sovereign immunity
grounds, we do not address the government’s argument that
RRCC’s damages counterclaims are barred by 28 U.S.C.
§ 2465(b)(2)(A). Part of a provision addressing government liability for costs, fees, and interest when a claimant prevails in a forfeiture proceeding, § 2465(b)(2)(A) provides that “[t]he United
States shall not be required to disgorge the value of any intangible benefits nor make any other payments to the claimant not specifically authorized by this subsection.” 28 U.S.C. § 2465(b)(2)(A).

App. 39
Congress has not waived the United States’ sovereign
immunity for damages claims of that nature. Because
RRCC’s counterclaims sought precisely those kinds of
damages, we hold its counterclaims are barred by sovereign immunity.
We VACATE the district court’s judgment and
REMAND with instructions to dismiss RRCC’s counterclaims for lack of subject matter jurisdiction.

App. 40
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
UNITED STATES OF AMERICA, §
§
Plaintiff,
§
Civil Action No.
VS.
§
§ 3:17-CV-2989-D
$4,480,466.16 IN FUNDS
§
SEIZED FROM BANK OF
§
AMERICA ACCOUNT
§
ENDING IN 2653, et al.,
§
Defendants in rem.
§
MEMORANDUM OPINION AND ORDER
(Filed Apr. 26, 2018)
In this civil forfeiture action, claimants Retail
Ready Career Center, Inc. (“RRCC”), Jonathan Davis
(“Davis”), Melissa Richey (“Richey”), Lake Forrest
Drive Properties, Inc. (“Lake Forrest”), Clear Conscience, LLC (“Clear Conscience”), and Trades United
Inc. (“Trades United”) (collectively, “claimants”) move
to dismiss the first amended complaint (“amended
complaint”) and for a more definite statement.1
Claimants have also filed two motions to unseal court
records. The government moves under 18 U.S.C.
§ 981(g)(1) to stay this proceeding during the pendency
of a related, ongoing criminal investigation, and it
moves under Fed. R. Civ. P. 12(b)(6) to dismiss RRCC’s
1

Claimants also move to dismiss the complaint, but, as discussed below, see infra § III (A), these motions are moot.

App. 41
counterclaims. For the following reasons, the court denies the government’s motion to stay; grants the government’s motion to dismiss RRCC’s counterclaims;
denies as moot claimants’ motions to dismiss plaintiff ’s complaint; grants claimants’ motions to dismiss
plaintiff ’s amended complaint; denies claimants’ motions to unseal court records; and grants the government leave to file a second amended complaint in order
to comply with Supp. R. G(2)(f ).
I
In September and October 2017, the government
seized certain property (collectively, the “defendant
property”) as derived from proceeds traceable to a violation, violations, or conspiracy to violate federal law.2
On October 30, 2017 the government filed the instant
in rem action, alleging, inter alia, that the defendant
property
is subject to forfeiture pursuant to 18 U.S.C.
§ 981(a)(1)(c), 18 U.S.C. § 981(a)(1)(D), and 18
2

The government seized $4,480,466.16 in funds from a Bank
of America account ending in 2653; $146,370.00 in funds from a
Bank of America account ending in 0252; $77,437.59 in funds
from a Charles Schwab account ending in 8588; $263.47 in funds
from a Wells Fargo account ending in 2092; $9,668.28 in funds
from a Bank of Utah account ending in 2251; $2,814.51 in funds
from a Bank of Utah account ending in 0784; a 2014 Lamborghini
Aventador; a 2016 Ferrari 488; a 2017 Bentley Continental GT
V8; a 2017 Mercedes-Benz AMG S63; a 2016 Mercedes-Benz G63;
a 2016 Dodge Ram 2500; a 2016 BMW Alpina; real property
located at 14888 Lake Forest Drive in Dallas, Texas; and
$11,005.00 in funds from a Capital One account ending in 2713.

App. 42
U.S.C. § 982(a)(3) because it is derived from
proceeds traceable to a violation, violations,
or conspiracy to violate 18 U.S.C. § 1031, 18
U.S.C. §§ 286 and 371, 18 U.S.C. § 641, 18
U.S.C. § 1001, 18 U.S.C. § 1341, and 18 U.S.C.
§ 1343 [as] is shown by the Verification Affidavit in Support of the United States’ Complaint
for Forfeiture of Special Agent Miguel Coias,
filed under seal, and incorporated as Plaintiff ’s Exhibit 1, in the Appendix filed in support of this Complaint.
Compl. ¶ 6.3
After receiving notice of the action, claimants filed
verified claims to the defendant property. They then
moved, in three separate motions, to dismiss the complaint and for a more definite statement. They also
moved to unseal court records. On December 14, 2017
the government filed the amended complaint and
moved to dismiss the constitutional counterclaims of
claimant RRCC. Claimants, again in three separate
motions filed on December 29, 2017, moved to dismiss
the amended complaint and for a more definite statement. They also filed a second motion to unseal court
records. On January 18, 2018 the government filed a
motion to stay, pursuant to 18 U.S.C. § 981(g)(1), on the
ground that a stay is necessary to protect the ongoing

3

The amended complaint contains a similar allegation, except that it also cites 28 U.S.C. § 2461(c). See Am. Compl. ¶ 6.

App. 43
criminal investigation from expansive civil discovery.
The court now addresses these motions.4
II
The court turns first to the government’s motion
to stay.
A
The government seeks a stay of this civil forfeiture
action against the defendant properties pursuant to 18
U.S.C. § 981(g)(1), which provides, in pertinent part:
“[u]pon the motion of the United States, the court shall
stay the civil forfeiture proceeding if the court determines that civil discovery will adversely affect the ability of the Government to conduct a related criminal
investigation or the prosecution of a related criminal
case.” 18 U.S.C. § 981(g)(1). In deciding whether to
grant such a stay, “the court must determine, first,
whether a related criminal investigation or prosecution exists and, second, whether civil discovery will ‘adversely affect’ the ability of the government to conduct
that criminal investigation or prosecution were the
civil forfeiture case allowed to proceed.” United States
v. All Funds ($357,311.68) Contained in N. Tr. Bank of

4

Two other motions remain pending: claimant Davis’ April
5, 2018 motion and petition to release property pursuant to 18
U.S.C. § 983(F), and claimant Richey’s April 10, 2018 motion and
petition to release property pursuant to 18 U.S.C. § 983(F). These
motions will be decided in due course.

App. 44
Fla. Account No. 7240001868, 2004 WL 1834589, at *2
(N.D. Tex. 2004) (Fish, C.J.) (“All Funds”).
B
The government contends that a stay is necessary
to protect an ongoing criminal investigation from the
expansive scope of civil discovery; that the criminal investigation and the civil forfeiture case arise from the
same facts and circumstances, as set forth in a sealed
affidavit filed with the amended complaint; that discovery in this civil forfeiture case could compromise
the investigation by permitting depositions of individuals who may be called to testify at a criminal trial,
including the defendants (who have a Fifth Amendment right to remain silent), law enforcement agents,
and individuals involved in the scheme under investigation; and that civil discovery could compromise
confidential law enforcement information, as well as
provide improper opportunities for the defendants to
ascertain prematurely the details of the ongoing
criminal investigation by earlier and broader civil discovery than is permissible in criminal proceedings.5

5

The government contends that requiring it to disclose the
identity of all witnesses with discoverable information and all
documents gathered in the course of the investigation, as claimants have already sought to do in the Rule 26 initial disclosure
process, would prejudice the criminal prosecution by subjecting
the government’s criminal investigation to broader discovery
than would otherwise be available at this stage to the subject of a
criminal investigation.

App. 45
Claimants respond that the government has failed
to meet its burden to show that discovery will adversely affect a related criminal investigation. They
contend that the government has shown only a hypothetical possibility that discovery “could” have a harmful effect on a related criminal investigation, which is
insufficient to establish that a criminal investigation
“will” be adversely affected; that the government has
failed to identify any discovery request or discovery
abuse, or identify any particular types of information
for which discovery should not be permitted (such as,
for example, confidential informants or witnesses
whose identities must be protected); that civil discovery will not harm the criminal investigation because
this case can be resolved without discovery—the only
reason claimants have not filed a motion for summary
judgment “packed with evidence proving [their] innocence” is because the government refuses to disclose
the allegations that claimants need to disprove, Claimants’ Br. 6; and that the government’s inability or unwillingness to submit evidence in support of its motion
to stay is indicative of the fact that the motion lacks
merit. Claimants also posit that, even if the government could meet its burden to show that civil discovery
will adversely affect a related criminal investigation, a
stay would nonetheless be inappropriate because a
protective order, rather than a stay, would protect the
government’s interest without unfairly limiting claimants’ ability to pursue the civil case.
The government replies that, if it is required to
disclose all of the people who have relevant knowledge

App. 46
about the case, this will have a negative impact on the
government’s related, ongoing criminal investigation,
and that a protective order would be inadequate because “if the case were to continue, information would
necessarily be disclosed to people who are both claimants [in] this case and subjects of the related criminal
investigation, obviating a protective order’s efficacy.”
Gov’t Reply 7.
C
Claimants do not challenge the existence of a related, ongoing criminal investigation. Instead, they
contend that the government has failed to meet its burden to show how discovery will adversely affect that
investigation. This court has previously explained that
§ 981(g)(1) requires “that the Government actually
show that civil discovery will adversely affect its ability to conduct the criminal investigation.” All Funds,
2004 WL 1834589, at *2 (emphasis omitted). “There is
no presumption that civil discovery, in itself, automatically creates an adverse affect on the government’s
related criminal proceeding. On the contrary, the Government must make an actual showing regarding the
anticipated adverse affect.” Id. (citing cases); see also
United States v. $3,592.00 United States Currency,
2016 WL 5402703, at *2 (W.D.N.Y. Sept. 28, 2016) (“But
to grant a stay on this record, without any specific
showing and when no lesser alternatives (such as a
protective order, or preliminarily limiting discovery to
certain areas or types) have even been attempted, in
this Court’s view would be inconsistent with the

App. 47
standard articulated by the statute.”); cf. United States
v. 1,730,010.00 in U.S. Currency More or Less, 2007 WL
1164104, at *3 (W.D. Tex. Apr. 16, 2007) (granting stay
where government “specifically establishe[d],” through
a sealed affidavit, that “civil discovery will adversely
affect the ability of the Government to conduct a related criminal investigation.”). The government has
failed to do so in its present motion.
The government contends that “[d]iscovery in this
case could compromise the investigation by permitting
depositions of individuals who may be called at a criminal trial, including the defendants (who have a Fifth
Amendment right to remain silent), law enforcement
agents, and individuals involved in the scheme under
investigation,” Gov’t Br. 5, and that civil discovery “also
could compromise confidential law enforcement information, as well as provide improper opportunities for
the defendant to ascertain prematurely the details of
the ongoing criminal investigation by earlier and
broader civil discovery than is permissible in criminal
proceedings,” id. at 6. The government cites as an example claimants’ Rule 26 initial disclosure requests,
which the government contends will
forc[e] the government to disclose the identity
of all witnesses with discoverable information
and all documents gathered in the course of
the investigation [which] would prejudice the
criminal prosecution by subjecting the government’s criminal investigation to broader
discovery than would otherwise be available
to the subject of an investigation at this stage.

App. 48
Id. The government’s arguments, however, “do nothing
more than speculate about how civil discovery will adversely affect its criminal investigation.” All Funds,
2004 WL 1834589, at *2.
As Chief Judge Fish explained in All Funds, under
the government’s theories, “every civil forfeiture case
with a related criminal investigation is entitled to a
stay. Such speculative and conclusory theories undercut the requirement of section 981(g) that the Government actually show that civil discovery will adversely
affect its ability to conduct the criminal investigation.”
Id. As in All Funds, the government has failed here to
point to any specific discovery request or abuse that
has taken place, and it makes no legitimate argument
about the prospective ability of any of the claimants to
engage in discovery that could compromise its related
criminal investigation.6 Id. (citations omitted). The
government has not shown that civil discovery will
compromise the identity of confidential informants or
6

In its reply brief, the government states that it described
the negative impact that discovery would have “and the specific
harm that would arise from the claimants’ Rule 26 disclosures
demand, demonstrated in the attached exhibits.” Gov’t Reply 5-6.
The attached exhibits consist of the government’s Rule 26(a)(1)
initial disclosures, in which the government states that it is “withholding the names of . . . all other individuals aside from the lead
case agents listed below, subject to the Court’s ruling on the government’s impending motion to stay and the Claimants’ motion
to unseal the affidavit filed under seal in support of the Plaintiff ’s
first amended complaint,” Gov’t Reply App. 6, and a transmittal
email. Neither of these documents, however, sheds any light on
how civil discovery in this case will have a negative impact on the
government’s related, ongoing criminal investigation.

App. 49
cooperating witnesses. Id. (citing cases). Nor has the
government shown how the claimants might abuse the
discovery process with overbroad discovery requests.
Id. (citing cases).
In sum, the government has not carried its burden
of showing that discovery in this civil forfeiture action
will adversely affect its criminal investigation of any
claimant. See 18 U.S.C. § 981(g)(1). Accordingly, the
government’s motion to stay this civil forfeiture proceeding is denied.
D
The court below is granting the government leave
to file a second amended complaint and is permitting
claimants to move anew to dismiss if, in light of the
amended pleading, they are still unable to draft a responsive pleading or conduct meaningful discovery. If
the government is able to make the required showing
to obtain a stay under 18 U.S.C. § 981(g)(1), or to obtain
other relief short of a complete stay (e.g., a protective
order or order limiting discovery to certain areas or
types), it may seek such relief by timely motion.
III
The court turns next to claimants’ motions to dismiss and for more definite statement.

App. 50
A
In view of the filing of the amended complaint,
RRCC’s December 4, 2017 motion to dismiss and for
more definite statement, Davis’ December 4, 2017 motion to dismiss and for more definite statement, and
the December 4, 2017 motion to dismiss and for a more
definite statement of claimants Richey, Lake Forrest,
Clear Conscience, and Trades United, all of which
were directed at the government’s now-superseded
complaint, are denied without prejudice as moot.
B
In their December 29, 2017 motions to dismiss—
which are addressed to the amended complaint—
claimants first move to dismiss on the ground that the
government has failed to plead a statutory basis for the
court to exercise in rem jurisdiction over the defendant
property.
Supp. R. G(2)(b) provides, in pertinent part, that
the complaint must “state the grounds for subjectmatter jurisdiction [and] in rem jurisdiction over the
defendant property.” Supp. R. G(2)(e) requires that the
complaint “identify the statute under which the forfeiture action is brought.” The amended complaint alleges
that the defendant property is subject to forfeiture
under 18 U.S.C. § 981(a)(1)(C) and (D) and 18 U.S.C.
§ 982(a)(3), and that the defendant property (other
than the real property) was seized in Dallas and has
been turned over to the United States Marshals

App. 51
Service in Dallas, who maintains custody of it.7 Am.
Compl. ¶¶ 4, 6. These allegations are sufficient to state
the grounds for subject-matter jurisdiction and to identify the statute under which the forfeiture action is
brought.
C
Claimants next move to dismiss the amended complaint on the ground that it fails to plead sufficient
facts to state a claim under 18 U.S.C. § 981(a)(1)(C), 18
U.S.C. § 981(a)(1)(D), 18 U.S.C. § 982(a)(3), or 24 U.S.C.
§ 2461(c).8
1
Pleading requirements for forfeiture actions in
rem are governed by Rule G of the Supplemental Rules
of the Federal Rules of Civil Procedure. See generally
Supp. R. G. Under Supp. R. G(8)(b), a claimant who
establishes standing to contest forfeiture9 may move
to dismiss the action under Rule 12(b). The sufficiency
of the complaint is governed by Supp. R. G(2), which
7

18 U.S.C. § 981(b)(2)(C) provides that a seizure of property
subject to forfeiture may be made without a warrant if the property was lawfully seized by a state or local law enforcement
agency and transferred to a Federal agency. The government contends, and claimants do not dispute, that the defendant property
was seized pursuant to a valid seizure warrant.
8
The government acknowledges “that it has no claims under
24 U.S.C. § 2461(c).” Gov’t Br. at 9-10.
9
The government does not contend that any claimant lacks
standing.

App. 52
requires, inter alia, that the verified complaint “state
sufficiently detailed facts to support a reasonable belief that the government will be able to meet its burden
of proof at trial.”10 Supp. R. G(2)(f ). In other words, the
government must “state[ ] the circumstances giving
rise to the forfeiture claim with sufficient particularity” to allow a claimant to conduct a “meaningful investigation of the facts and draft[ ] a responsive pleading.”
United States v. Mondragon, 313 F.3d 862, 867 (4th Cir.
2002).11
2
In their motions to dismiss, claimants contend,
inter alia, that the government has not alleged sufficiently detailed facts to support a reasonable belief
that it will be able to establish that a violation of any
10

18 U.S.C. § 983(c) provides that, in a civil forfeiture suit,
“the burden of proof is on the Government to establish, by a preponderance of the evidence, that the property is subject to forfeiture,” and that “if the Government’s theory of forfeiture is that
the property was used to commit or facilitate the commission of a
criminal offense, or was involved in the commission of a criminal
offense, the Government shall establish that there was a substantial connection between the property and the offense.” 18 U.S.C.
§ 983(c)(1), (3).
11
Although Mondragon pre-dates the adoption of Supp. R.
G(2), the advisory committee’s notes explain that the new Rule
expressly incorporates the Fourth Circuit’s holding in promulgating the new pleading standard for in rem forfeiture actions. See
Supp. R. G advisory committee’s note to 2006 Amendments (“The
complaint must state sufficiently detailed facts to support a reasonable belief that the government will be able to meet its burden
of proof at trial. See [Mondragon, 313 F.3d at 866]. Subdivision
(2)(f ) carries this forfeiture case law forward without change.”).

App. 53
of the enumerated statutes occurred or that any of
the defendant property is traceable to any of the unpleaded facts regarding the purported violations. The
court agrees.
In support of its claim for civil forfeiture, the government pleads the following “facts and basis for forfeiture”:
[t]he defendant property is subject to forfeiture pursuant to 18 U.S.C. § 981(a)(1)(c), 18
U.S.C. § 981(a)(1)(D), 18 U.S.C. § 982(a)(3),
and 28 U.S.C. § 2461(c) because it is derived
from proceeds traceable to a violation, violations, or conspiracy to violate 18 U.S.C. § 1031,
18 U.S.C. §§ 286 and 371, 18 U.S.C. § 641, 18
U.S.C. § 1001, 18 U.S.C. § 1341, and 18 U.S.C.
§ 1343. This is shown by the Verification Affidavit in Support of the United States’ Complaint for Forfeiture of Special Agent Miguel
Coias, filed under seal, and incorporated as
Plaintiff ’s Exhibit 1, in the Appendix filed in
support of this amended complaint.
Am. Compl. ¶ 6. These allegations are insufficient to
meet Supp. R. G(2)’s requirement that the complaint
must “state sufficiently detailed facts to support a reasonable belief that the government will be able to meet
its burden of proof at trial.” Supp. R. G(2)(f ). See, e.g.,
United States v. All Funds on Deposit in Lee Munder
Wealth Planning Resource Account Number *****1080, 137 F.Supp.3d 125, 130 (D. Mass. Jan. 22, 2016)
(holding as a matter of law that, where complaint
“[left] too much to the imagination,” and “[f ]actual

App. 54
allegations regarding many of the required elements of
[11 U.S.C. § 547(b), on which first claim for forfeitability is based] [were] missing,” complaint failed to meet
pleading standard of Supp. R. G(2)(f )); cf. United States
v. Funds in the Amount of $33,534.93 Account Number
Ending **8429 From Bank of Am., 2013 WL 12333983,
at *6 (D. N.M. Mar. 25, 2013) (denying motion to dismiss in civil forfeiture action where “the totality of
facts alleged [were] sufficiently detailed to apprise
Claimant of the basis for the forfeiture action, allowing
her to respond by contesting the source of these funds.
She is sufficiently informed to be able to conduct a
meaningful investigation [and therefore Supp. R.] G’s
particularity requirements have been met[.]”).
3
The government maintains that claimants’ arguments essentially focus on the fact that, pursuant to
court order, the verifying affidavit of Special Agent
Miguel Coias has been filed under seal. The government contends that the sealed affidavit includes facts
about an ongoing criminal investigation that forms the
basis of this lawsuit; that there are many decisions in
which courts have allowed civil forfeiture complaints
to be filed, and remain, under seal when the disclosure
of the underlying information could compromise an ongoing criminal investigation; that the sealed affidavit
filed in support of the amended complaint contains
more than sufficient facts to demonstrate the government’s entitlement to file and maintain the facts under
seal, and to the relief sought at this stage of the civil

App. 55
lawsuit and ongoing criminal investigation; that disclosure of the affidavit would reveal matters related to
an ongoing criminal investigation about claimants’
business dealings, and would have a deleterious effect
on the investigation; that, on balance, the need to complete the pending investigation outweighs claimants’
need for information to establish their rights to the defendant property; and that the government has filed a
motion to stay this civil litigation while the parallel
criminal investigation proceeds, and the government
should not be required to disclose any sealed materials
until the conclusion of the related criminal investigation. The court is not persuaded by the government’s
arguments.
First, although the court granted the government’s motion to seal the affidavit submitted in support of its amended complaint, the court is today
denying the government’s motion to stay. For the reasons explained above, the court holds that the government has not met its burden to show under 18 U.S.C.
§ 981(g)(1) that discovery in this civil forfeiture case
will adversely affect the related, ongoing criminal investigation of any claimant.
Second, the government has failed to point to any
case, and the court has found none, that supports the
court’s consideration of a sealed affidavit that a
claimant is unable to challenge—as opposed to a publicly-filed affidavit—when determining whether the
complaint meets the pleading standards of Rule 8 and
Supp. R. G(2). Cf. United States v. One Parcel of Real
Property, 921 F.2d 370, 376 (1st Cir. 1990) (reversing

App. 56
dismissal of in rem action where, although forfeiture
complaint was insufficient, government’s second affidavit, “expressly made part of the second forfeiture
complaint, alleges facts sufficient to support a reasonable belief that the government, at trial, can make a
probable cause showing that most, if not all, of the defendant property is connected to illegal drug proceeds.”
(footnote omitted)); United States v. 4492 S. Livonia
Rd., 889 F.2d 1258, 1266 (2d Cir. 1989) (holding that
affidavit stating “the dates, circumstances, location
and parties to the alleged drug transactions as well as
the drugs and drug paraphernalia seized from the
premises, cured any defect in the complaint” (citation
omitted)). Allowing the government to keep from
claimants the “detailed facts” supporting its forfeiture
claim (especially in a case such as this where discovery
has not been stayed in light of a pending criminal investigation) would frustrate claimants’ ability to conduct a “meaningful investigation of the facts and
draft[ ] a responsive pleading.” Mondragon, 313 F.3d at
867.
D
Although the court concludes that the amended
complaint does not satisfy the pleading requirements
of Supp. R. G(2) and that claimants’ motion to dismiss
should be granted, it declines at this juncture to dismiss this action. Instead, the court grants the government leave to file, within 28 days of the date of this
memorandum opinion and order is filed, a second
amended complaint that “state[s] sufficiently detailed

App. 57
facts to support a reasonable belief that the government will be able to meet its burden of proof at trial.”
Supp. R. G(2)(f ). If, after the government files its second amended complaint, claimants are still unable to
draft a responsive pleading or conduct meaningful
discovery, they may move anew to dismiss the second
amended complaint.
IV
Claimants have filed two motions to unseal court
records.12 In light of the court’s granting of leave to the
government to file a second amended complaint that
complies with Supp. R. G(2)(f ), the court concludes
that the court records (i.e., the affidavits) should not be
unsealed at this time.
First, because the court is not relying on the contents of the sealed affidavits to deny claimants’ motions to dismiss, it is unnecessary to unseal the court
records. Second, the sealed affidavits filed in support
of the complaint and amended complaint may contain
information protected by the attorney-client privilege
or as work product. The court should not require the
government to disclose potentially protected material
without permitting it to invoke the privilege and/or
protection.

12

On December 4, 2017 claimants moved to unseal court
records, and, on December 29, 2017, after the government
amended its complaint, claimants filed a second motion to unseal
court records.

App. 58
Accordingly, the court denies claimants’ motions to
unseal.
V
Finally, the court considers the government’s motion to dismiss the counterclaims filed by claimant
RRCC.
A
In connection with its verified claim in this case,
RRCC has filed two constitutional counterclaims, alleging that the government violated the Fourth
Amendment by committing an unreasonable seizure
of its property, i.e., by seizing the claimed property
without an indictment, notice and hearing, or admissible evidence supporting a claim of forfeiture, and that
the government violated the Fifth Amendment by depriving RRCC of its property without due process of
law.
The government moves under Rule 12(b)(6) to
dismiss RRCC’s counterclaims, contending, inter alia,
that because RRCC is a claimant in this civil forfeiture
action—not a party against whom a claim is made—
RRCC may not file a counterclaim. In response, RRCC
argues that no in rem jurisdiction exists in this case;
that, as a matter of historical practice, an owner of arrested property can bring suit against the government
in actions in rem; that Supp. R. E(7) permits counterclaims in rem; that the Fifth Circuit has never

App. 59
suggested that counterclaims in in rem proceedings
were impermissible; and that the government’s authorities are incorrect because they all trace back to
a First Circuit case that cites no authority for the
proposition that counterclaims cannot be asserted
in rem.
B
Neither the government nor RRCC cites any binding Fifth Circuit authority addressing the question
whether a claimant can bring a counterclaim against
the United States in a civil forfeiture proceeding. Persuasive authority from other circuits, however, supports the conclusion that because RRCC is not a
defendant against whom a claim has been asserted,
it cannot bring a counterclaim in this civil forfeiture
proceeding.
In United States v. One Lot of U.S. Currency
($68,000), 927 F.2d 30 (1st Cir. 1991), the First Circuit
held that a claimant in a civil forfeiture action could
not assert a counterclaim against the government. The
court explained:
By definition, a counterclaim is a turn-thetables response directed by one party (“A”) at
another party (“B”) in circumstances where
“B” has earlier lodged a claim in the same proceeding against “A.” A forfeiture action is in
rem, not in personam. The property is the
defendant. Since no civil claim was filed by
the government against [the claimant]—indeed, rather than being dragooned into the

App. 60
case as a defendant, he intervened as a claimant—there was no “claim” to “counter.” Thus,
[the claimant’s] self-styled counterclaim was
a nullity, and the court below appropriately
ignored it.
Id. at 34. Other courts have followed this approach.
See, e.g., United States v. 8 Luxury Vehicles, 88 F.Supp.3d
1332, 1337 (M.D. Fla. 2015) (citing persuasive authority and concluding that “there is a general rule prohibiting the filing of counterclaims in civil proceedings
based on case law, Rule 13(d), and Supplementary Rule
G.”); United States v. Funds from Fifth Third Bank
Account # 0065006695, 2013 WL 5914101, at *12 (E.D.
Mich. Nov. 4, 2013) (holding that claimant could not file
counterclaim in civil forfeiture proceeding because
United States had not filed any claims against claimant and any permissible claims against United States
had to be filed as separate action); United States v.
$22,832.00 in U.S. Currency, 2013 WL 4012712, at *4
(N.D. Ohio Aug. 6, 2013) (“Claimants in an in rem civil
forfeiture action generally may not file counterclaims
against the government.”); United States v. $43,725.00
in U.S. Currency, 2009 WL 347475 at *1 (D.S.C. Feb. 3,
2009) (“[T]he true defendant in a civil forfeiture action
is the property that has been seized, rather than the
claimant of that property, and the claimant of the
seized property is not entitled to pursue a counterclaim
against the Government or individuals within the
limited scope of the in rem civil forfeiture action.”);
United States v. 1866.75 Board Feet, 2008 WL 839792,
at *3 (E.D. Va. Mar. 25, 2008) (“claimants in an in rem
civil forfeiture action . . . are not entitled to include

App. 61
counterclaims.”); United States v. Assorted Computer
Equip., 2004 WL 784493, at *2 (W.D. Tenn. Jan. 9,
2004) (stating that civil forfeiture is in rem, not in personam, and that defendant is the property subject to
forfeiture, not the claimant, and “[b]ecause the government has not asserted a claim against [claimant], there
can be no counterclaim.”).
Based on these persuasive authorities, and absent
binding Fifth Circuit authority to the contrary, the
court grants the government’s motion to dismiss
RRCC’s counterclaim. The court holds that, as a claimant in an in rem civil forfeiture action, RRCC cannot
bring a counterclaim. Accordingly, the court grants the
government’s motion to dismiss RRCC’s counterclaims.
***
For the reasons explained, the court denies the
government’s January 18, 2018 motion to stay; grants
the government’s December 20, 2017 motion to dismiss
RRCC’s counterclaims; denies without prejudice as
moot claimants’ December 4, 2017 motions to dismiss
and for more definite statement; grants claimants’
December 29, 2017 motions to dismiss first amended
complaint and for more definite statement; denies
claimants’ December 4, 2017 motion to unseal court
records and December 29, 2017 second motion to unseal court records; and grants the government leave to
file a second amended complaint within 28 days of the
date this memorandum opinion and order is filed.
SO ORDERED.

App. 62
April 26, 2018.
/s/ Sidney A. Fitzwater
SIDNEY A. FITZWATER
UNITED STATES
DISTRICT JUDGE

